<html>
<title> - GROWING JOBS THROUGH INFRASTRUCTURE INVESTMENT</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      GROWING JOBS THROUGH INFRASTRUCTURE 
                                INVESTMENT

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON INNOVATION, 
              ENTREPRENEURSHIP, AND WORKFORCE DEVELOPMENT

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                              MAY 6, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-011
             Available via the GPO Website: www.govinfo.gov
             
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-448                     WASHINGTON : 2020                     
          
-----------------------------------------------------------------------------------               
                          
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Jason Crow..................................................     1
Hon. Young Kim...................................................     3

                               WITNESSES

Mr. Michael Tamasi, President and CEO, AccuRounds, Avon, MA......     5
Dr. Annette Parker, President, South Central College, Mankato, MN     7
Mr. Eddie Bustamante, Political Director, Laborers' International 
  Union of North America Local 720, Denver, CO, testifying on 
  behalf of Construction Craft Laborers in Colorado..............     9
Mr. Gus Bruner, President and Project Executive, Caliagua, Inc., 
  Anaheim, CA, testifying on behalf of Associated General 
  Contractors of America.........................................    10

                                APPENDIX

Prepared Statements:
    Mr. Michael Tamasi, President and CEO, AccuRounds, Avon, MA..    29
    Dr. Annette Parker, President, South Central College, 
      Mankato, MN................................................    34
    Mr. Eddie Bustamante, Political Director, Laborers' 
      International Union of North America Local 720, Denver, CO, 
      testifying on behalf of Construction Craft Laborers in 
      Colorado...................................................    42
    Mr. Gus Bruner, President and Project Executive, Caliagua, 
      Inc., Anaheim, CA, testifying on behalf of Associated 
      General Contractors of America.............................    43
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Airports Council International--North America (ACI)..........    49
    National Association of Minority Contractors (NAMC)..........    54
    National Stone, Sand & Gravel Association (NSSGA)............    56
    Revision Energy..............................................    58
    SBE Council..................................................    62
    Surety & Fidelity Association of America and the American 
      Property Casualty Insurance Association....................    65

 
             GROWING JOBS THROUGH INFRASTRUCTURE INVESTMENT

                              ----------                              


                         THURSDAY, MAY 6, 2021

              House of Representatives,    
               Committee on Small Business,
      Subcommittee on Innovation, Entrepreneurship,
                                 and Workforce Development,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:01 p.m., via 
Zoom, Hon. Jason Crow [chairman of the Subcommittee] presiding.
    Present: Representatives Crow, Phillips, Newman, Bourdeaux, 
Williams, Tenney, Garbarino and Young Kim.
    Chairman CROW. Good morning. I call this hearing to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I want to thank everyone, especially our witnesses today 
for joining us today for this Committee's remote hearing. I 
want to make sure that we start by noting a couple of important 
requirements.
    Let me begin by saying that the standing House and 
Committee rules and practice will continue to apply during 
remote proceedings and all members are reminded that they are 
expected to adhere to these standing rules including decorum 
when they are participating in any remote event.
    With that said, the technology that we are utilizing today 
requires us to make some small modifications to ensure that the 
members can fully participate in these proceedings. House 
regulations require members to be visible through a video 
connection throughout the proceeding, so please keep your 
cameras on. Also, if you participate in another proceeding, 
please exit and log back in later.
    In the event a member encounters technical issues that 
prevent them from being recognized for their questioning, I 
will move to the next available member of the same party. I 
will recognize that member at the next appropriate time slot 
provided they have returned to the proceeding.
    Should a member's time be interrupted by technical issues, 
I will recognize that member at the next appropriate spot for 
the remainder of their time once their issues have been 
resolved. In the event a witness loses connectivity during 
testimony or questioning, I will preserve their time as the 
staff address the technical issue. I also may need to recess 
the proceedings to provide time for a witness to reconnect.
    And finally, remember to remain muted until you are 
recognized to minimize background noise.
    In accordance with the rules established under H.Res. 965, 
staff have been advised to mute participants only in the event 
that there is inadvertent background noise. Should a member 
wish to be recognized, they must unmute themselves and seek 
recognition at the appropriate time.
    All right. We have all the technical stuff out of the way 
now.
    So it is no secret that America's infrastructure has long 
been in decline. The World Economic Forum ranked the United 
States 13th in the world for infrastructure in 2019. Our 
country earned a C- in a recent infrastructure report card 
issued by the American Society of Civil Engineers, continuing a 
streak of subpar marks from the organization.
    Across the country, roads, bridges, and railways are 
crumbling. In April, President Biden announced the American 
Jobs Plan. The framework would invest nearly $2 trillion in the 
national infrastructure over the next decade. The plan would 
modernize 20,000 miles of highway, repair 10,000 bridges, 
eliminate all lead water pipes and provide highspeed broadband 
to all Americans.
    In the process, America's infrastructure revitalization 
would boost our Nation's small businesses. In multiple 
nationwide surveys, over half of small business owners viewed 
infrastructure spending as integral to their business's 
success. Small firms rely on new bridges, new electrical 
transmission lines, and accessible high-speed Internet to ship 
their products, power their business and market their brands. 
By investing in infrastructure, we can help entrepreneurs reach 
new domestic and international markets, tap new suppliers, and 
ultimately, expand their business. The American Jobs Plan 
represents a generational investment in American 
infrastructure. If enacted into law, President Biden's plan 
will lead to a wave of job creation unprecedented in recent 
memory.
    However, it is not enough to create jobs. Our country needs 
a pipeline of skilled workers to fill them. The infrastructure 
workforce is staring down a deficit of qualified employees. 
Infrastructure workers number 17.2 million nationally and more 
than a quarter of them are projected to retire or permanently 
leave their positions over the next decade.
    A 2020 survey found 72 percent of construction firms 
anticipated that labor shortages would be their biggest hurdle 
in 2021. On top of that, many of those who permanently lost a 
job due to COVID were concentrated in low-income sectors like 
service and retail. These workers will need skills training to 
fill the void in the infrastructure workforce.
    If we are to successfully rejuvenate America's 
infrastructure, we will need qualified workers to get the job 
done. That is why the American Jobs Plan invests $100 billion 
in workforce development programs. These funds will help 
underserved groups like women and people of color, including a 
$40 billion investment in a new dislocated workers program, and 
a $48 billion investment in workforce development 
infrastructure and worker protect.
    With college tuition costs skyrocketing and little 
guarantee that it will lead to a middle-class lifestyle, 
apprenticeships are gaining popularity. Apprenticeships are 
mutually beneficial for businesses and their employees. Workers 
are compensated as they learn new skills and firms have the 
opportunity to develop otherwise ineligible applicants into 
valued members of their team.
    The American Community College system also provides 
students with the skills needed to get a good job after 
graduation. These institutions are located all around the 
country and are sometimes more accessible than 4-year 
universities. They often work with the private sector to 
determine workforce needs.
    So I hope that today's hearing will allow us to explore 
workforce development programs and discuss how Congress can 
leverage them to train a new generation of workers.
    I now yield to the Ranking Member, Ms. Kim, for her opening 
statement.
    Ms. YOUNG KIM. Thank you, Chairman.
    As the country continues its recovery from the widespread 
destruction caused by COVID-19, there are issues that existed 
before the pandemic that must be addressed. Chief among those 
is the state of America's infrastructure. Therefore, I think 
our hearing on Growing Jobs through Infrastructure Investment 
provides a timely discussion.
    It is not hyperbole to state that infrastructure is one of 
the driving forces behind America's economic, military, and 
political strength. Every great civilization in times past 
acknowledged the tremendous importance of a robust 
infrastructure network and our country is no different. It is 
one of the reasons for America's rapid expansion and rise, and 
it is one of the reasons why this Nation has become globally 
recognized as a world leader for nearly 2 centuries.
    Unfortunately, our Nation's infrastructure is declining in 
almost every sector. From delays caused by traffic congestion 
on poorly maintained roads and highways, to overburdened and 
aging airports, antiquated drinking and wastewater systems, an 
ever-expanding backlog in rail and public transit maintenance, 
the Nation's sprawling infrastructure network is long overdue 
for an upgrade.
    We ignore the seriousness and immediacy of this program at 
our own peril. The more we allow our infrastructure to decay, 
the more we will see economic activity wither.
    Close to my home district in California's 39th District, 
stalled traffic robbed the LA Metro area commuters an average 
of 119 hours in 2017. So clearly, we must do more to decrease 
commuting time in an increased savings through a better 
infrastructure system. When infrastructure is a priority, it 
produces well-paying construction and manufacturing jobs for 
middle-class Americans. Given the large concentration of small 
businesses in manufacturing and constructure, investing in 
infrastructure can and will improve the lives of millions of 
small business employers and their employees on a wide scale. 
Additionally, investing in infrastructure causes an outward 
rippled of prosperity, creating jobs in many industries through 
a significant multiplier effect. In short, infrastructure means 
wealth creation in struggling small businesses now more than 
ever in the wake of the COVID-19 pandemic need this boost.
    While we can all agree on the importance of investing in 
infrastructure, how we get there is a more delicate matter. The 
term ``infrastructure'' can encompass many things, from roads, 
highways, and bridges, to aviation, ports, water systems, and 
even broadband. However, to maximize the public benefit of a 
vigorous and healthy infrastructure network, we must start with 
a focused, targeted approach to our core infrastructure 
systems. Additionally, I believe small businesses operate best 
when the government does not stand in their way. We need to cut 
the red tape, reduce the bureaucracy, and eliminate burdensome 
regulations and requirements that hold small businesses and our 
economy back. Subjecting small businesses to inflexible labor 
laws and increased taxes as we have seen proposed by some of my 
colleagues across the aisle will undermine the hard-earned 
recovery efforts undertaken by small businesses clawing their 
way back from the break.
    It is no secret that we have different views on many 
issues. Yet, infrastructure is one issue that is too important 
to be waylaid by partisan politics. We should build on our 
common ground and bring this Nation's infrastructure back to 
the shining example of modern development and success it used 
to be.
    I look forward to hearing the testimony of our witnesses 
today, and I yield back.
    Chairman CROW. Thank you, Ms. Kim. The gentlewoman yields 
back.
    I would like to take a moment to explain how this hearing 
will proceed. Each witness is going to have 5 minutes to 
provide a statement, and each Committee member will have 5 
minutes for questions. Please ensure that your microphone is on 
when you begin speaking and that you return to mute when you 
have finished.
    With that, I would like to introduce our first witness.
    Our first witness is Mr. Michael Tamasi, president and CEO 
of AccuRounds, a manufacturing company in Avon, Massachusetts. 
He is a second generation owner and has been working in the 
family business since 1985. In 2014, he was named to the New 
England Advisory Council for the Federal Reserve Bank of Boston 
where he became Chair in 2018. He is also active in the 
National Tooling and Machining Association as an audit team 
leader and served on the Boston chapter's board for 15 years. 
He currently sits on the advisory board for the Mechanical 
Engineering Department at the University of New Hampshire where 
he received a Bachelor of Science in Mechanical Engineering 
before going on to earn an MBA from Babson College. Welcome, 
Mr. Tamasi.
    Our second witness is Dr. Annette Parker, president of 
South Central College in Faribault, Minnesota. Dr. Parker has a 
long history in the community college system having obtained an 
education from Lansing Community College and serving in 
leadership positions in the Kentucky Community and Technical 
College System as the director of workplace education. Dr. 
Parker was appointed to President Obama's Advanced 
Manufacturing Partnership Steering Committee 2.0 and Co-Chaired 
the Demand-driven Workforce Development Team. Among many other 
roles, she has served on the board of directors of the American 
Association of Community Colleges and on the MIT Work of the 
Future Taskforce Advisory Board. Welcome, Dr. Parker.
    Our third witness is Mr. Eddie Bustamante. Mr. Bustamante 
is the political and legislative director of Laborers' 
International Union of North American Local 720 in my home 
district. He received a bachelor's degree in Political Science 
from Metropolitan State University of Denver and has served on 
the Workforce Work Group for the Energize Denver Taskforce to 
create jobs while cleaning up the city's current and future 
buildings. Welcome, Mr. Bustamante.
    I will now yield to the Ranking Member to introduce our 
final witness.
    Ms. YOUNG KIM. Thank you very much.
    I would like to welcome our final witness, who is from the 
great state of California, Mr. Gustavo Bruner. Mr. Bruner is 
the president and project executive of Caliagua, Inc. Under his 
leadership, Caliagua earned a stellar reputation within the 
Southern California community for delivering precise, detailed, 
and successful outcomes on water and wastewater engineering and 
construction projects. Mr. Bruner has a long and rich history 
in this industry starting his career as early as high school 
working in the field as a laborer with skilled pipefitters, 
carpenters, laborers, and operating engineers to construct 
water and wastewater facilities. He continued his education 
with a pipeline and mechanical contractor as a project 
engineer, cost accountant and estimator, and eventually 
transferred to join the private sector as a controller for a 
multinational industrial painting and coatings contractor. He 
joined Caliagua in 1986. This is a family business started by 
his father in 1987, and he has served in multiple roles from 
mechanical and concrete field work to project manager, and now 
the president and owner of this company. He is a native of 
Anaheim, California, having grown up just blocks away from 
Disneyland and is a proud graduate of California State 
University Fullerton where he earned his B.A. in Business 
Administration and Accounting. Today, he is testifying on 
behalf of the Associated General Contractors of America (AGC), 
which is the leading association in the construction industry 
representing over 27,000 firms, many of whom are small 
businesses. Mr. Bruner, thank you for your participation today 
and we look forward to hearing your testimony. I yield back.
    Chairman CROW. Thank you. The gentlewoman yields back.
    Mr. Tamasi, you are now recognized for 5 minutes.

 STATEMENTS OF MICHAEL TAMASI, PRESIDENT AND CEO, ACCUROUNDS; 
  DR. ANNETTE PARKER, PRESIDENT, SOUTH CENTRAL COLLEGE; EDDIE 
 BUSTAMANTE, POLITICAL DIRECTOR, LABORERS' INTERNATIONAL UNION 
 OF NORTH AMERICA LOCAL 720; GUS BRUNER, PRESIDENT AND PROJECT 
                   EXECUTIVE, CALIAGUA, INC.

                  STATEMENT OF MICHAEL TAMASI

    Mr. TAMASI. Thank you, Representative Crow. And thank you 
to the Committee on Small Business Subcommittee for the 
opportunity to speak today. Thank you for all Congress has done 
during the pandemic to keep small businesses afloat and people 
employed.
    My name is Michael Tamasi, a second generation family 
business owner, president and CEO of AccuRounds, a mid-sized 
precision machining company located in Avon, Massachusetts, 
providing mechanical components. We make parts for Boeing, 
Amazon Robotics, Walmart, and more. Our higher purpose today is 
making shafts used in machines that manufacture vaccines. That 
work has tripled in the past 12 months.
    I have been involved in the workforce space for over 30 
years, both locally and nationally, ensuring that the 
manufacturing industry has strong workforce development, which 
is extremely important to me, my team, and my community.
    The shortage of skilled workers is not a new story. I have 
an article in my office from 1975 featuring my father titled, 
``Just give me a few good men.'' Forty-five years later, we 
still have a skills gap. We need people with critical thinking 
and problem-solving skills; and the desire to continuously 
improve.
    As our workplace becomes even more reliant on advanced 
technology, we also face the need to upskill workers with 
digital skills. Thirty-five percent of workers in our industry 
need additional digital skills to be successful in jobs of the 
21st Century. The pandemic has only exacerbated our ability to 
hire and train skilled workers. We are turning away work due to 
the lack of talent. We need investments in infrastructure, 
manufacturing, and clean energy, which will intensify the 
hiring challenge for small business, making the role of public 
investment and policy that supports workforce development a 
critical part of any infrastructure investment. Supply chain 
resiliency is vital to the future of advanced manufacturing, 
and more importantly, to our national security defense, 
semiconductor, battery technology, biomanufacturing, and more.
    AccuRounds has addressed this problem in many ways and I 
will highlight three. Sector partnerships. The Massachusetts 
Advanced Manufacturing Collaborative, which I Co-Chair with our 
Secretary of Housing and Economic Development, is a sector 
partnership that convenes public and private stakeholders to 
develop and implement the Massachusetts Manufacturing Plan. 
State funded regional consortium grants deliver job-driven, 
short-term training programs through collaboration among 
industry, education, and government. The Massachusetts 
Emergency Response Team launched out of the AMC when COVID hit, 
assisted Massachusetts companies to pivot their operations in 
record time to produce much needed PPE for our medical 
community. Highlighting the importance of a vibrant 
manufacturing ecosystem and what can be accomplished with the 
proper investments and resources.
    Vocational School Partnerships. Voc-Tech schools are our 
top pipeline for talent with a focus on recruiting and 
advancing women, people of color, and people with disabilities 
into our workforce. We currently have a female CNC machinist 
co-op from a technical school who will join us full time when 
she graduates. One team member of color who stated as a co-op 
just over 10 years ago purchased a home recently. Multiple 
training programs helped him advanced his skills and pay. I was 
thrilled the day he shared that news with me. Manufacturing is 
no longer dark, dirty, and dangerous. It is safe, smart, and 
sustainable.
    Finally, Incumbent Worker Training. AccuRounds supports and 
invests heavily in on-the-job training which is a daily 
activity. Incumbent worker training is essential for our 
business and for our team to succeed and advance their career. 
Through the AccuRounds Lifelong Learning University, we have 
created a learning mindset utilizing state-funded technical 
training, MEP soft skills training, custom internal programs, 
online courses, and more. Manufacturing is very capital 
intensive. CNC machines, quality tools, software programs, 
thus, the need to constantly learn new technology, costly in 
both dollars and training time.
    How can Congress help? With these proven solutions there 
are many ways Congress can continue to partner with the small 
and mid-size businesses. The proposed American Jobs Plan has an 
investment of $100 billion for workforce, a critical step, and 
we will need this Congress to maintain robust investments in 
workforce development as a foundation of any infrastructure and 
job creation package. In addition to new funding, Congress 
should ensure existing funding supports industry or sector 
partnerships, like the Advanced Manufacturing Collaborative 
that drive job-specific training, changing students' lives, 
supporting STEM careers, while bolstering American products and 
industries. These investments should support costs on providing 
incumbent worker training including developing digital skills. 
3D printing, robotics, automation are here. At our doorstep is 
artificial intelligence, augmented reality, and virtual 
reality.
    Finally, better aligning postsecondary policy with industry 
demand and worker need would revolutionize our capacity to 
upskill and reskill our workforce. If Congress expanded 
financial aid to anyone seeking skills training, student in 
high-quality, short-term training programs, not just those 
seeking traditional college degrees, then small business, could 
offer career progression for even more workers than we do 
today.
    Thank you for your time. I look forward to answering any 
questions you may have.
    Chairman CROW. Thank you, Mr. Tamasi. I appreciate your 
testimony.
    Dr. Parker, you are now recognized for 5 minutes.

                  STATEMENT OF ANNETTE PARKER

    Ms. PARKER. Thank you, Subcommittee Chair Crow and Ranking 
Member Kim and distinguished members of the Subcommittee.
    My name is Dr. Annette Parker and I serve as the President 
of South Central College, with campuses in Faribault and North 
Mankato, Minnesota. I testify before you on behalf of 30 
community and technical colleges and 7 universities within the 
Minnesota State system. My testimony also reflects perspectives 
of over 1,000 community colleges.
    South Central College has a campus in a small metropolitan 
area and another in a rural community that are influenced by 
agriculture, manufacturing, and healthcare. We are surrounded 
by many small towns and businesses and they rely on South 
Central College to meet their workforce needs. They are 
challenged by workforce shortages and skills gaps in which 
community colleges are uniquely positioned to help.
    South Central College has developed strong public-private 
partnerships with our communities, organizations, and 
businesses, to provide education that meets the needs of our 
employers, supports the economic development of our 
communities, and grows student employment.
    In 2013, I served on President Obama's Advanced 
Manufacturing Partnership 2.0 Steering Committee. Within the 
Committee's report, public-private partnerships, work-based 
learning opportunities, stackable credentials, and innovative 
apprenticeship models were emphasized. As a result, South 
Central College created the Minnesota Advanced Manufacturing 
Partnership (MnAMP), a consortium of 12 Minnesota state 
colleges and two Minnesota state centers of excellence. We have 
created a work-based learning program using stackable 
certifications and apprenticeships that were funded by a $15 
million TAACCCT grant from the U.S. Department of Labor.
    The successes we achieved were also achieved by other 
community colleges across the country thanks to TAACCCT.
    Given the impacts of the pandemic, it is critical for the 
Federal government to fund community college-led job training 
programs to prepare the workforce needed for any major national 
infrastructure initiative. Meeting the workforce needs of our 
employers requires a strong infrastructure. This infrastructure 
includes labs within community colleges that mirror the 
workplace. With technology advancing rapidly, it is challenging 
for community colleges to make the necessary investment. I was 
also privileged to sit on the advisory board for the MIT Work 
of the Future Taskforce. The taskforce found increased 
technology will not significantly reduce the workforce but will 
require skilled workers to augment their work using technology. 
It suggests the need for more short-term credentials.
    The increasing sophistication of technical education 
requires continuous, large capital investments. While we are 
thankful for the state support we receive, it falls short of 
meeting our infrastructure needs. We appreciate our business 
and industry partners with their financial support and 
equipment donations in trying to address that need. But to 
educate the workforce of the future, we need an infrastructure 
that supports them.
    For this reason, community colleges across the country are 
enthusiastic and thankful for the Jobs Plan Community College 
Infrastructure Investment. The President's Community College 
Infrastructure Proposal is critical to our success. The 
American Association of Community Colleges estimates a national 
deferred maintenance and needed renovations and upgrades at $60 
billion. For Minnesota state institutions alone, the deferred 
maintenance is at $1.1 billion. Any Federal efforts should 
ensure a broad infusion of funds including smaller community 
colleges that serve small and rural businesses. Emphasis should 
be given to facilities projects with a strong local economic 
impact.
    Finally, expanding Pell grants to include short-term 
training is critically important. This allows students to 
master a skill, start work, and return to the college later for 
additional education. The Jobs Act supports low-income 
students' access to job-ready programs that develop a skilled 
workforce.
    I thank you, and I appreciate the opportunity to testify 
today on our college's experience in building a strong 
workforce and I look forward to answering any questions you may 
have. Thank you.
    Chairman CROW. Thank you, Dr. Parker. I appreciate your 
testimony very much.
    Mr. Bustamante, you are recognized for 5 minutes.

                 STATEMENT OF EDDIE BUSTAMANTE

    Mr. BUSTAMANTE. Thank you so much, Representative Crow and 
members of the Subcommittee. Thank you so much for the 
opportunity to speak today on behalf of this hearing titled 
Growing Jobs through Infrastructure Investment.
    I am Eddie Bustamante, a member of the Laborers 
International Union of North America Local 720, and the 
political director for my local, which is a Colorado Statewide 
Local.
    Our laborers work in many sectors within the construction 
industry, such as heavy-highway construction, commercial 
building, pipeline and tunneling, precast plants, traffic 
control, clean energy infrastructure, and water infrastructure. 
We take great pride in ensuring our members have access to high 
quality training through our registered apprenticeship program 
and a state-of-the-art training facility in Brighton, Colorado.
    Our trade became an apprenticable trade in 1993 and we have 
since worked to create a solid pipeline of workers into the 
industry. Apprenticeship programs are an ``earn while you 
learn'' model program meaning workers are employed by a 
contractor while receiving on-the-job training and also 
receiving in-class training to further their knowledge.
    It is important to highlight that through our 
apprenticeship program we train for industry and not just for 
one job or one contractor.
    Within our training, members have trained state and U.S.-
recognized and approved certifications such as OSHA 10, OSHA 
30, all terrain forklift certifications, First AID and CPR, 
hazardous waste, hoisting and rigging, work zone safety, 
Colorado Department of Transportation certifications. These are 
just a few among many other training courses available to our 
members that extend from general construction training, 
concrete safety training, et cetera.
    We know that our country faces a shortage of workers and 
the goal of the current administration is to create good union 
jobs through this infrastructure investment. Therefore, 
creating a pipeline of workers is incredibly important. A key 
component to this is ensuring we set a high standard for 
training as we talk about workforce development. For example, 
our apprenticeship programs are approved and registered through 
the U.S. Department of Labor, holding us to the highest 
standard of training. These standards should be set across the 
industry to help prevent shortcuts for contractors, 
associations, temporary staffing agencies to create their own 
apprenticeship programs without oversight from the U.S. DOL. A 
solid workforce development plan begins with high training 
standards.
    Here on the ground, we have ongoing efforts to reach our 
youth and our underserved communities to educate them on the 
value of a career in the construction industry. We consistently 
attend job fairs and career fairs in the community and in high 
schools.
    From a policy standpoint, we must also ensure high quality 
and meaningful labor standards that promote family sustaining 
wages, employer paid benefits, jobsite safety, local area 
hiring, and apprenticeship utilization standards. The 
communities in which this infrastructure is built deserve the 
opportunity to work on these projects in an equitable fashion.
    Our LIUNA Local 720 members earn great wages and employer 
paid benefits, which include a healthcare plan classified as a 
platinum plan under the Affordable Care Act, lifetime pension 
benefit, education and training. We believe these things are 
key to a solid career in construction. If these standards are 
set across the industry, I believe there would be a natural 
progression of workers, young and old, to want to start a 
construction career thus helping us fill the voids of these 
workers shortages.
    I yield the rest of my time and I look forward to answering 
any questions as well. Thank you so much.
    Chairman CROW. Thank you, Mr. Bustamante.
    And Mr. Bruner, you now have 5 minutes. You are recognized 
for your testimony. Thank you.

                    STATEMENT OF GUS BRUNER

    Mr. BRUNER. Thank you very much, Chairman Crow, Ranking 
Member Kim, and members of the Subcommittee on Innovation, 
Entrepreneurship, and Workforce Development. Thank you for 
inviting me to testify on this vitally important topic.
    My name is Gus Bruner. I am the president and project 
executive of Caliagua based in Southern California. For more 
than 43 years, Caliagua has been trusted and respected for our 
engineering and contracting work in water and wastewater 
pumping and treatment facilities. We are a small union 
contractor specializing in the construction of potable water, 
stormwater and sewage pumping plants and related water and 
wastewater facilities. I am testifying on behalf of the 
Associated General Contractors of America (AGC), the 
association of the general construction industry which 
represents more than 27,000 firms.
    First, I want to thank the Committee for taking prompt and 
bipartisan action during the pandemic, including the Payroll 
Protection Program and ensuring that loans are fully 
deductible. Federal investments in infrastructure can play an 
essential role in rebuilding our economy and creating well-
paying jobs for the American people. It would enable the 
industry to hire more workers and jumpstart our economic 
recovery today while providing long-term capital investment 
that will support our economy and communities for generations 
to come.
    Importantly, infrastructure yields high returns on 
investment. The Department of Commerce estimates that for
    spent on water infrastructure, about $2.6 is generated in 
the private economy. And for every job added in the water 
workforce, the BEA estimates 3.68 jobs are added to the 
national economy.
    The coronavirus and related economic lock downs led to 
significant changes in the labor market compared to just a year 
ago. For example, the construction industry cut nearly 1 
million people from its payrolls between March and April 2020. 
Today, the industry has 200,000 fewer workers than before the 
pandemic. Meanwhile, there are 8 million fewer workers in the 
broader economy today than before the pandemic.
    This new labor dynamic has created a unique opportunity for 
the construction industry to attract significant portions of 
the recently unemployed into high-paying construction careers. 
These are jobs that cannot be outsourced and provide enormous 
opportunity for career advancement. Policies that ensure the 
industry does not miss the current labor opportunities should 
be encouraged while regulatory and labor policies that restrict 
growth and economic recovery need to be rejected.
    Today, few school districts offer what is now known as 
Career and Technical Education (CTE) programs or provide 
instruction in construction skills. This signals to many 
students and their families that construction is not a career 
worth considering, despite the fact that it pays more than 10 
percent above the average job.
    CTE programs are among the most valuable education programs 
for exposing students to construction skills and lifelong 
careers. However, CTE programs are expensive to administer and 
fund, with cost-intensive classrooms and equipment, and quality 
CTE instructors in short supply. The Federal Government could 
do more in the areas of CTE apprenticeship programs.
    There have been barriers, especially for small employers, 
to tapping into other government programs like Workforce 
Innovation and Opportunity Act (WIOA), with its burdensome 
reporting and compliance requirements, lack of flexibility, and 
the fact that many employers are unaware of the myriad of 
federally supported programs or how to get engaged.
    While there are many policies that will support and spur 
long-term infrastructure investment and create good paying 
jobs, there are certain policies that restrict job growth and 
the economic recovery that is desperately needed. I list these 
in my written testimony and will briefly touch on them.
    The misleadingly named ``Protecting the Right to Organize'' 
Act or PRO Act will dangerously alter the balance between an 
employee's right to bargain collectively and an employer's 
right to manage their business. Of note, an issue that does not 
get enough attention is the PRO Act could actually harm 
unionized employers and their employees. Unclear regulatory 
permitting requirements result in a chaotic patchwork of 
Federal mandates that create considerable economic hardship on 
the construction industry, especially small businesses, 
amounting to fewer construction projects built and fewer 
construction jobs available.
    Lastly, there is a concern that increases in corporate and 
individual tax rates will hinder construction investment and 
job growth by limiting the ability of many businesses to invest 
in capital improvement that will provide additional career 
opportunities for construction workers.
    Thank you again for inviting AGC to testify before the 
Committee today. I look forward to answering any of your 
questions. Thank you.
    Chairman CROW. Thank you, Mr. Bruner.
    I will begin by recognizing myself for 5 minutes.
    Mr. Bustamante, one of the things that I have learned 
talking to businesses and particularly those in advanced 
manufacturing and construction and the trades is the challenge 
of getting young folks interested in this work, in these 
careers, and I know that your union in particular does a lot of 
work. You all spend a lot of time trying to make the case and 
recruit young folks into the field. Can you just discuss for a 
minute, what are the areas of reluctance you are hearing from 
folks and what do you find the most effective in helping 
promote careers and trades in construction?
    Mr. BUSTAMANTE. Thank you, Representative Crow.
    I can give a little backstory of me personally, and a lot 
of it has to do with the message that gets sent within grade 
school, for example. Right? I did not know about apprenticeship 
programs until after I graduated high school. So right now what 
we try to do is we try to create relationships with counselors 
or leadership within schools here locally, really all over the 
state, wherever we can get in contact and connect with any 
school leadership and really talk about the value of a career 
in construction because like it was said earlier, there is 
great value behind it and it is an above par job as long as the 
standards are there. And that is part of it. You kind of mix in 
the education part where these kids, you know, kids are just 
not getting exposed to the value behind this type of training 
and apprenticeship programs, you know, this earn while you 
learn. Everything is so pushed for 4-year colleges which is 
great but not all of us are headed that way. So we just need 
the exposure. So that is what we try to do as a laborers union. 
We just try to expose the value of our training and really, 
like I said in my testimony, we train for industry. A lot of 
people think that construction is a one time, you go to this 
project and then you kind of drop off and it is hard to gain 
work in another project or whatever it is. No. Our training is 
meant to train for industry. Therefore, our workers bring value 
to any contractor who is willing to bring on high-skilled craft 
laborers, for example, and like you said Representative Crow, 
we work extremely hard. We have a mobile training unit that we 
can take anywhere into the state to bring the training to 
students or to these underserved communities like I mentioned 
earlier.
    So there is a disconnect. There is a disconnect within 
schools to not expose kids who might not be ready for a 4-year 
college, to expose them to trade apprenticeship programs. So we 
will continue to promote that.
    Chairman CROW. Thank you, Mr. Bustamante.
    Dr. Parker and Mr. Tamasi, I am particularly interested in 
the issue of the startup abilities for small and medium size 
businesses to create apprenticeship programs. Often the startup 
costs are prohibitive for many small growing businesses to 
create these programs. Very briefly, if you could touch on what 
would be the best way to reduce those startup costs and help 
those businesses create these programs so we have a better 
pipeline? Mr. Tamasi, maybe starting with you.
    Mr. TAMASI. The best way to do that for small companies is 
to work with regional consortiums. We cannot afford it. We are 
a 75-person company. We cannot afford to develop our own 
apprenticeship program. And we do not necessarily need a full 
trained apprenticeship. We have very specific machines that are 
specific to our company and they need specific training for 
that. So the general portion of apprenticeships, we actually 
had individuals through COVID do an online apprenticeship 
program that was sponsored by one of our regional consortiums. 
So that works quite well. It was tailored to our industry and 
then we were able to take that individual, give him the 
specific training on the equipment we have, and in 2 years, has 
advanced his pay by about 50 percent which is a record in our 
company. He has done tremendous. So with the proper training, 
he continued to advance and have a higher earning power.
    Chairman CROW. Thank you.
    Dr. Parker?
    Ms. PARKER. Thank you, Mr. Crow.
    What we have done in Minnesota is through our collaborative 
of 12 community colleges, we are working on apprenticeships and 
we call it Work, Learn, and Earn. We bring all of the employers 
together. Some of them have maybe one or two apprentices at a 
time, but by bringing regional partnerships together we can 
coordinate with the employers on the apprenticeship and make 
sure that certain days of the week they are learning or certain 
times in the week they are learning. The other times they are 
earning. And through coordinating that regionally, it helps all 
of the employers make that more affordable and more achievable 
for them.
    The other thing that we have done through our collaboration 
through Minnesota State colleges and universities is we offer 
something called Live Online where we can take the training 
into a lunchroom at an employer's site, one or two employees at 
a time, and we do that in partnership with all of the colleges 
and universities so we can have one instructor that might be 
reaching companies, small companies throughout the great state 
of Minnesota.
    Chairman CROW. Thank you, Dr. Parker.
    My time has now expired, so the Ranking Member, Ms. Kim, is 
now recognized for 5 minutes.
    Ms. YOUNG KIM. Thank you, Chairman.
    Before I begin my line of questioning, I would like to make 
an apology for the record. In my introduction of our witness, 
Mr. Bruner, I incorrectly stated that his company, Caliagua, 
was started in 1987 but it was actually 1978. So with my 
apologies I would like to make that correction for the record.
    And I would like to speak to all witnesses. I could not 
agree more that investing in workforce development is critical 
for the future of this Nation. However, I am a bit concerned 
that the focus of the Democrats' infrastructure bill does not 
seem to align with our shared priority. Large portions of the 
$100 billion in spending allocated for workforce development 
programs seem to be diverted to priorities unrelated to 
manufacturing, construction, or traditional infrastructure.
    So given that funding is a finite resource and sweeping 
infrastructure bills coming out of Congress are rare, what are 
your thoughts or reactions to this? Do you or do you not think 
an infrastructure bill should focus its funding on actual 
infrastructure? Your thoughts? Any or all witnesses, please.
    Mr. BRUNER. Well, I would be happy to address that. I think 
we have to spend money equally. I think it is very important to 
spend it on the infrastructure projects, because without the 
projects there is not a lot of learning that can happen in the 
field. I think it starts with the projects, getting projects 
that have already been designed and get them out to the field 
or in contractors' hands to bid on and construct. If we can do 
that then we can add more employees to our payrolls and we can 
hire more apprentices and they can learn more. I belong to the 
Agency of California. We are a union contract. We belong to 
several of the union apprenticeship programs and the unions do 
a very good job, the best they can in training the people that 
we get from the unions. My experience as a small business is 
the projects you want to bid on are small sometimes and there 
is not enough room for a bunch of apprentices to work. We have 
smaller crews and we need the opportunity to have more 
apprentices on the project and yet because the projects are 
small they do not provide for that. So we have got to figure 
out a better way so that small businesses, as well as large 
contractors, can get the opportunities for apprentices to work 
on their projects because once you find a good worker, I can 
tell you having 30 or 40 years in the business, they are an 
asset that you know this person, this employee can make a lot 
of money for you because he is such a good worker. He is just 
like any other asset. You realize it very quickly and you want 
to put him on the next job. And so the more opportunities we 
have for larger projects where we can increase our manpower, 
the better off we are going to be and the better off these 
employees who can train on the job. So I hope that answers some 
of your question.
    Chairman CROW. Ms. Kim, you are muted.
    Ms. YOUNG KIM. Sorry about that.
    In the interest of time, may I hear from the other 
witnesses, just a quick yes or no to the question that I just 
posed?
    Mr. TAMASI. Yes, Rep. Kim, I think any investment in 
infrastructure starts with physical investment, the training of 
individuals to work.
    Ms. YOUNG KIM. Thank you.
    Mr. TAMASI. We are looking at a program called the Uniquely 
Abled program. It started in California, by the way, and we 
want to bring it to Massachusetts. We are trying all over the 
state and there may be some Federal funds but we are trying to 
figure that out. And we want to start a program in September, 
and hopefully, there will be funds to start a program like 
that, to put people on the spectrum through a machinist 
training program and place them into jobs.
    Ms. YOUNG KIM. Thank you.
    Let me reclaim my time so I can ask another question to Mr. 
Bruner.
    I concur with your assessment that the government is 
overloaded with massive overlapping regulations which is 
particularly challenging for a small contractor. So if you 
could waive a magic wand and strike your top three most 
ineffective or burdensome regulations in the small business 
space, which three would you choose and why?
    Mr. BRUNER. That is a great question. I think in 
California, in terms of regulations that are currently out 
there, the California Air Resources Board. We are very 
concerned with the regulations that are there being formulated 
in the Federal Government and state government where they 
challenge the equipment that we use to construct our projects 
and placing burdensome regulations on the pollutants that might 
come from this equipment. And as a small contractor, you are 
constantly replacing your equipment.
    Another one is the labor component of having local hiring 
requirements on projects. Local hiring requirements do serve a 
purpose but I think they are filled with a lot of regulatory 
requirements that could be streamlined and allow the contractor 
to be more competitive.
    And finally, again, I think, I do not know, I think those 
are the two most important ones. I cannot even think of a 
third. Thank you.
    Ms. YOUNG KIM. Thank you very much. I yield back my time.
    Chairman CROW. Thank you. The gentlewoman yields back.
    Next up is the gentlewoman, Ms. Bourdeaux, from Georgia. 
You are recognized for 5 minutes.
    Ms. BOURDEAUX. Okay. Well, thank you so much, Mr. Chairman. 
And thank you all to the witnesses here.
    I taught at Georgia State University and have been involved 
in these kinds of issues for a long time and I probably share 
some of your frustration. I think I have been talking about the 
workforce development issues for decades and this mismatch 
between our training and these good paying jobs out there.
    So you all have addressed some of these issues but I will 
just kind of circle back on some of them. And maybe start with 
Mr. Bustamante. Why do we not have more of these programs in 
high schools? In college, I teach an MPA program. It is public 
administration. And all of our students, they have an 
internship even as they are in school. So they go right out of 
that program and they already have experience. They have worked 
in the area where they want to develop themselves. And I 
continue to be puzzled why we do not have more of these in our 
high schools.
    Mr. BUSTAMANTE. That is a great question, Representative 
Bourdeaux, and thank you for it. It is a question that even we 
ask. It is a question that we ask when we make these 
connections with leadership from schools, and we try our 
absolute best within our building trades capacity here in 
Colorado to partner with, we have actually a program here in 
the city of Arvada where there is a partnership with the high 
school and with a technical college as well where these kids 
have the opportunity to do some in-class kind of training and 
then after a certain amount of time of this kind of in-class 
exposure to the trades they get to have a little fieldtrip to 
go to one of our training facilities and then they also receive 
some kind of hands-on training at the technical college. I do 
not know if it is a matter of funding. I do not know if it is a 
matter of just the openness of schools wanting to bring these 
programs into their mix, into their curriculums, and you would 
be surprised at how hard those conversations are to have 
because there is a lot of steps you have to take. There are a 
lot of people you have to talk to whether it is district 
leadership, principals in schools, and there is always somebody 
else that has to approve of some kind of curriculum. Right? So 
it is a great question because it is something that even we 
wonder where it is like you would think it would be a lot 
easier, especially with the way the conversations go right now. 
Apprenticeships are a hot topic and we are just as surprised as 
you are that we do not have something more like that in more 
schools. So we are still trying to figure that out to be 
honest, Representative.
    Ms. BOURDEAUX. Yeah. No. I keep having the conversation and 
somehow wonder how much of this is related to just the will to 
get it done to do it.
    Dr. Parker, I bet you have some insight on that as well. So 
people working in the community colleges. And I know you guys 
have those kinds of programs and that is really what you are 
describing. How do we move it to the high schools and so we 
have that kind of continuum from the high school into the 
community colleges?
    Ms. PARKER. Well, Representative Bourdeaux, I would like to 
provide an example of something that we just did here in one of 
my communities in Faribault, Minnesota. We created a new 
program. It is called H2C, High School to College to Career. We 
started off with health science but we are starting now with 
advanced manufacturing as well as construction trades. What we 
did was work with the high school. Initially, they did not have 
a 7th hour. And you think about all the general education 
requirements. There was not enough time in the day for young 
people in high schools to take a vocation that they have 
interest in. So we worked through a referendum to the community 
to add a 7th hour. We partnered with our local chamber of 
commerce and the superintendent and hospitals and health 
facilities throughout the region for the health facilities to 
help us design the curriculum where high school kids will now 
get 36 college credits before they leave high school from South 
Central College. And then if they decide to go on and be a 
nurse or a medical lab technician they will have one semester 
or two additional semesters from the college and they will have 
a degree. Now, that makes it more affordable for a high school 
student when you think about student debt, and it also provides 
the workforce of the future.
    And one last thing I will say is that this community is 
changing demographically, so it is very diverse. It has a lot 
of Somali students, new Americans, and this now is creating 
that diverse workforce for the community as well.
    Ms. BOURDEAUX. I think I am out of time but I think we are 
all interested in hearing about those innovative programs and 
how we do more of those. So thanks so much.
    Chairman CROW. Thank you. The gentlewoman yields back.
    Next we have the gentlewoman, Ms. Tenney from New York is 
recognized for 5 minutes.
    Ms. TENNEY. Thank you, Mr. Chairman. And I want to say 
thank you to all the witnesses.
    I am a small business owner. We are celebrating our 75th 
year. We are in an industry that is light manufacturing but we 
do always have to adapt to technology. We started out with one 
of the longest newspapers continuously operating in the United 
States, a weekly newspaper, and the technology was very similar 
75 years ago but now it is so much more advanced. And we are so 
grateful for all the innovators in our community. We have a 
wonderful community. Where we had an Air Force base, we now 
have a company called Innovari, which is doing a lot of 
innovation.
    But I want to direct my first question to Mr. Bruner 
because I know you had indicated in your testimony, and I just 
took a look at it, you stated that the PRO Act would restrict 
job growth and the economic recovery that is desperately 
needed. Can you give me like maybe your top three reasons why 
the PRO Act would do that and you know, why it would hurt small 
business and innovation?
    Mr. BRUNER. Thank you. That is an excellent question, 
Representative Tenney.
    The problem for small businesses especially and larger 
businesses have a very good relationship with their employees 
as it is. And I believe that the unions would be better served 
spending their time instead of trying to separate. The problem 
with the matter is we belong to the AGC of California and they 
serve as our collective bargaining agent and we are a small 
employer. If the PRO Act were to be initiated, it would prevent 
the employer, our company, Caliagua, from being part of a joint 
collective bargaining agreement with the AGC of California. We 
would have to negotiate directly with the unions ourselves 
rather than be a part of the association. The association does 
a much better job because of their size and strength to 
represent us with each union that we belong to as opposed to 
just representing ourselves. And the cost of having a labor 
manager for us and all the other benefits that come with the 
AGC and their affiliations, every time we have an issue with 
the union, which we do not have many of, they represent us much 
better than we could probably represent ourselves and it would 
cost us more to hire an attorney or a labor specialist to do 
that. I think that is probably the most important for me is 
wanting that strength of the association to represent us. They 
have done an excellent job for the last 30 years and we do not 
want to change that.
    Ms. TENNEY. Yeah, my question, so as a small business owner 
we do not have a union in our business but we do have a lot of 
really good trade unions in our community that really do great 
work and we have other unions in the private sector, public 
sector of course, too, and you know, they do provide a lot of 
strength and security and a lot of good things for their union 
members.
    My big concern is that in New York they are considering 
doing through the PRO Act something that I think could be 
really detrimental to innovation and that could be equating an 
independent contractor and an employee as one. And there is no 
distinction which actually quite honestly a lot of independent 
employers or independent people that I know who work really do 
not want this to happen. They want to maintain their 
independence. How is that affecting California? I do not know 
in action. I know how it is in New York. The gap is narrowing. 
The PRO Act would basically make the rest of the country 
California. Is that my correct read?
    Mr. BRUNER. I could not answer that question, so I am 
sorry.
    Ms. TENNEY. So do you deal with independent contractors in 
any way?
    Mr. BRUNER. No. Well, we deal with subcontractors. We are 
not allowed to work with independent contractors technically. I 
mean, if they are an independent contractor they would have to 
be an employee of us and then they would have to belong to the 
union and a bunch of other problems that come with that. So we 
do not generally use independent contractors in our business. 
We hire small subcontractors that have to be union companies 
which is great. I support the unions and all that in that 
effort but we do not hire independent contractors.
    Ms. TENNEY. So even independent contractors, some of them 
are union. You know, like IBEW and others. But I just did not 
know how that would affect, I mean, I know the PRO Act is 
seeking to do that and that could be problematic for a lot of 
industries as they are seeking innovation, independence. But I 
appreciate your work as a small business owner.
    I have a question for Mr. Parker, Dr. Parker. You mentioned 
that your college had developed dual training partnerships 
between businesses and educational providers and that these 
partnerships----
    Chairman CROW. We are going to have to, Ms. Tenney----
    Ms. TENNEY. Oh, am I out of time?
    Chairman CROW.--your time has expired, so we are going to--
we might have time for another round. So if you want to stick 
around----
    Ms. TENNEY. Oh, thank you. Sorry.
    Chairman CROW.--you might be able to get your question----
    Ms. TENNEY. Sorry. I do not have a clock here so I cannot 
tell where my timing is. I apologize. Thank you though.
    Chairman CROW. The gentlewoman yields back.
    Next is the gentleman from Minnesota, Mr. Phillips. You are 
recognized for 5 minutes.
    Mr. PHILLIPS. Thank you, Mr. Chairman. Greetings to my 
colleagues and to our wonderful witnesses.
    I am just going to jump right in and talk about upskilling 
and public-private partnerships. And I have to direct my first 
question to my fellow Minnesotan and a woman of whom I am a 
great fan, Dr. Parker. And this might go along with my 
colleague from New York, Ms. Tenney's question as well. I would 
love for you to share with my colleagues some more about the 
Minnesota Advanced Manufacturing Partnership. If you spoke of 
it earlier, for give me, but I think it is a best practice, one 
that we should be replicating around the country. And perhaps 
you can just share some of the details and success of that with 
my colleagues.
    Ms. PARKER. Thank you, Representative Phillips.
    Let me just say that it started in 2013. I mentioned in my 
testimony that I was appointed to President Obama's Advanced 
Manufacturing Steering Committee. That comes from my many 
years, I am a native Michigander that started in the auto 
industry and then went on to build a National Center of 
Excellence with Toyota to support all the major automotive 
companies throughout the Midwest and the Southeast. So in that 
work we determined that it was best to develop apprenticeships 
that were innovative. Some were registered. Others were 
designed using a European model we call dual training. And once 
I got on that Committee I realized that the next round of 
TAACCCT grants would come out shortly thereafter and I wanted 
to position the state of Minnesota to benefit from that work. 
And so we came together as a state system, 12 of the community 
and technical colleges, and our two manufacturing Centers of 
Excellence at two of our universities to really look at how we 
could support manufacturers throughout Minnesota through 
industry-recognized credentials that were stackable, were 
portable, and allowed students to get one semester, for 
example, into welding, get certified through the American 
Welding Society, and get into the workforce. That work, once it 
was funded, then led to us helping testify for Senator Bonoff 
at that time at Minnesota state legislature to fund the 
Pipeline initiative through the Minnesota Department of 
Employment and Economic Development that helps employers pay 
for the journeymen, so to speak, at their site and helping 
support the students when they come into their facilities for 
training, as well as working with DOLI here in Minnesota, the 
Department of Labor and Industry on registered apprenticeships. 
So that work has continued and really the Federal initiative 
gave Minnesota the kickstart to begin to do this work but there 
is much more that needs to be done because we still have 
challenges in having highly skilled workers and it is really 
slowing growth with our employers. There are just not enough 
bodies that have the skills for the demand.
    Mr. PHILLIPS. Agreed. Well, thank you, Doctor. And we look 
forward to sharing that success with others around the country.
    Mr. Tamasi, I would like to direct my next question to you 
relative to innovation. I believe the United States, 
unfortunately, has seated leadership in innovation to other 
countries around the world. The United States Congress is not 
exactly a bastion of innovation itself, and yet we are 
entrusted with advising policies to inspire. I would love your 
comments quickly, if possible, as to what incentives, what 
subsidies, what policies in your estimation would be most 
effective in the near term to reignite innovation in the United 
States.
    Mr. TAMASI. I will point to a couple. Thank you, 
Representative.
    We have Green Town labs, which I believe is now called 
Forge, that was started here as a startup, a place for startup 
companies to go to, to be housed to develop their products. 
Have some Federal or State funds. And I believe they just 
opened in Texas. We have Mass Robotics here where companies 
that have a concept can go and collaborate and learn. And that 
is somewhat subsidized. And of course, Massachusetts is the 
number one innovation state in the country but we also can make 
stuff here which is not as well-known as our innovative 
capacity.
    What was the third one I was thinking of? I am sorry.
    Mr. PHILLIPS. No, not to worry about it. You will probably 
think of it----
    Mr. TAMASI. Oh, the Manufacturing USA Institutes. So 
Massachusetts is involved with six different institutes. I have 
been to the ARM Institute in Pittsburgh that we worked with. We 
wrote letters to support Stonehill College down the street from 
here and doing work with the Photonics Institute. And they are 
trying to reach out more to small business and their grant 
programs to get some of these new technologies in the future, 
wearables and fiber and all that started up. And I think that 
is driven by the Federal Government. That is a great program 
that needs to be pushed through more through the----
    Chairman CROW. The gentleman's time is expired. I am going 
to have to----
    Mr. TAMASI. Thank you.
    Chairman CROW. We may come back to you, Mr. Tamasi, but I 
have to move to the next witness. Thank you.
    Next up is the gentleman, Mr. Williams, from Texas. You are 
recognized for 5 minutes.
    Mr. WILLIAMS. Thank you, Mr. Chairman and Ranking Member.
    Federal permitting processes are complex and cause 
headaches for small businesses. We should be cutting red tape 
to help small businesses grow, not enforcing them to navigate a 
time-consuming and complicated web of bureaucracy. President 
Biden has made several proposals to bolster environmental 
reviews that will simply add years to completing some of these 
necessary infrastructure investments. So because of this 
bidding on federally funded projects, it will be less 
attractive to small businesses.
    Mr. Bruner, can you elaborate on how the permitting process 
can stand in the way of your contracting firms and how we can 
more efficiently expedite projects for communities in need of 
new infrastructure?
    Mr. BRUNER. Thank you, Mr. Williams. That is a great 
question. I would say first and foremost because I am from 
California, they should seek the advice of our representatives 
and the CEO of AGC of California and ask them to pick their 
brains and get some suggestions of how to work with the local 
agencies that put out some of these projects like CEQA, who is 
one of the main components of many construction projects here 
in California where they have to go through vast amounts of 
environmental reviews before the projects are ready to go. And 
if an infrastructure project does come out and Congress, you 
know, allocates millions of dollars to these projects, the 
first hurdle is all the environmental reviews and lawsuits that 
occur when these projects have to begin and they get delayed 
for years and years. And I think we have to take the teeth out 
of some of these laws and lawsuits that allow some of these 
public interests that want to stop and not have any growth and 
not allow these projects to continue for their own particular 
reasons. And that is a tough ask is to change the law to 
prevent these matters from happening. But if we could encourage 
them to have some good discussions and eliminate these 
lawsuits--that is the best thing we could give them.
    Mr. WILLIAMS. Thank you. Small businesses are finally 
recovering from COVID and the last thing they need are the 
taxes increased like is being proposed again in President 
Biden's American Jobs Plan which quite frankly is a No Job Plan 
when we raise these taxes. As a small business owner myself, I 
am an auto dealer, I know firsthand how increasing taxes will 
cause businesses to hire less people and invest less back into 
their business. They will play defense. For small businesses 
who are critical components of domestic companies, supply 
chains that are competing around the globe, these tax rates 
will also make us less competitive compared to international 
companies.
    So Mr. Tamasi, can you discuss how these proposed tax 
increases would affect your business and how it could lead to 
the domestic companies being less competitive?
    Mr. TAMASI. Well, we do not want to pay more taxes if that 
means less for our team and less for our investments. Plain and 
simple. The more we can put back into our companies to invest 
in the futures the better. And as I mentioned, we are very 
capital intensive. We purchased five CNC machines this year. 
That comes at a great cost. Fortunately, borrowing is less 
expensive these days so we can afford to take money out of the 
bank and take on some debt but at some point, you know, if we 
are paying too much in taxes we are not going to be able to 
invest in our workforce development or our technology 
investments that we need.
    Mr. WILLIAMS. No question. If you have to pay for taxes you 
are going to reduce the size of your company.
    Thirdly, Mr. Bruner, in your testimony you mentioned 
several policies my colleagues on the left have introduced that 
hurt long-term infrastructure investment and restrict job 
growth. Specifically, you brought up the PRO Act, which we 
talked about, which would prop up unions and prevent right to 
work states like Texas, where I am from, from enforcing their 
own labor laws.
    So Mr. Bruner, can you go quickly on how forced 
unionization would hurt small businesses and what 
recommendations your association can give to promote good 
paying and would help small businesses?
    Mr. BRUNER. Okay. Thank you, Representative Williams.
    Again, I think, especially for small business, we compete 
with many nonunion contractors and they have no laws that they 
have to follow. Fortunately, most of the work that we do is 
prevailing wage work that requires prevailing wage, which is 
equal to the union wages that most people pay. But in terms of 
small businesses that are unionized, they are just putting more 
power into the nonunion companies and that is the biggest 
killer of all because we compete with them on all these 
projects that we bid for and it is not a level playing field 
anymore when these nonunion companies are allowed to do 
whatever they want. They do not have the requirements that come 
upon a union contractor like ourselves. And we fully support 
the union but they need to turn around and give us the same 
support and understanding, especially if they would just think 
about the competition that we have to deal with in terms of 
dealing with nonunion contractors, especially in a small union 
company.
    Mr. WILLIAMS. Thank you. I yield my time back, Mr. 
Chairman.
    Chairman CROW. Thank you. The gentleman yields back.
    Next is the gentlewoman from Illinois, Ms. Newman. You are 
recognized for 5 minutes.
    Ms. NEWMAN. Well, thank you so much, Chair. I am so 
appreciative of all of our witnesses being in today and great 
ideas all the way around.
    Let me start by saying, putting something into the record 
that I disagree wholeheartedly with some of the comments around 
the PRO Act. I think it is the only way that we are going to 
reignite the economy, particularly in the middle section, and 
provide greater worker training and upskilling and reskilling 
and creating coalitions. So for the record I disagree 
wholeheartedly.
    That said, I have a couple of questions. So in my district, 
about 80 percent of the GDP are small businesses under $3 
million in net revenue so we are very small business driven. I 
am a former small business owner and management consultant, and 
one of the things that I worry about are those parts of the 
population that are perfect for some of these upskilling and 
reskilling, like veterans, local talent to a specific area.
    So I will give you an example. We have an incubator that 
does small manufacturing companies and grows them and then 
moves them out to other areas and it is enormously successful. 
One of the reasons it is so successful is that it concentrates 
on on-ramping veterans, high school students in the 
manufacturing areas and training them through union 
apprenticeship programs and union programs at high schools. And 
because it is enormously successful, I am actually going to do 
a white paper on it so that we can enter it into potentially 
some funding opportunities at the Federal level.
    My question given that great coalition of the entities, 
unions, apprenticeship programs, community colleges that are 
participating in this in my district to get this work done, I 
am going to refer to Dr. Parker first. If you would, in your 
coalition which sounds terrific, and bravo on all your work, by 
the way, do you also have high school trade craft training as 
part of your model?
    Ms. PARKER. Yes, Representative Newman. We are in the 
process now with this model and we designed it off of the IBM 
P-TECH if you are familiar with the IBM P-TECH Model. So there 
is heavy employer engagement but now we are starting with 
advanced manufacturing as well as the building trades with our 
high school partner. And so we started first with health 
science because there was a huge demand. That partnership is 
with Mayo Clinic and Allina Clinic and some others. The next 
move is to work with the other sectors. But it was important 
for us to make sure that we put the high school in a position 
where they could offer the courses because when you think about 
the general education requirements that the high schools have 
to have, and as that has increased to an earlier question then 
there is no time for the technical courses. So we worked with 
our chamber. Our community got behind it with a referendum and 
now we are leveraging that with our high school partnership.
    Ms. NEWMAN. Are you doing some level of certification 
programming so that when that individual comes out of some 
manufacturing training or whatever it might be in high school 
that they walk out the door with a certificate that puts them 
into the workforce?
    Ms. PARKER. They are stackable credentials so it allows 
multiple----
    Ms. NEWMAN. Okay. You spoke about that earlier.
    Ms. PARKER.--entry and exit points. And so absolutely, we 
are stacking all of the curriculum with industry recognized 
credentials.
    Ms. NEWMAN. Good. And then my second and very quick 
question, I know I only have about a minute left, Mr. 
Bustamante, first of all, thank you for your comments and all 
of your great work. My LIUNA partners here in Illinois 3 are 
amazing and we have done great programs with them.
    You have an interesting perspective, right, is because 
holistically looking at everything from construction to trade 
and manufacturing with your members, do you have any innovative 
ideas around bringing veterans in and bringing localized 
talent? When there is a project, making sure that localized 
talent is engaged within a 5 mile area, do you have anything 
there that you would like to share with regard to those two 
elements?
    Mr. BUSTAMANTE. Of course. Thank you so much, 
Representative Newman.
    So locally, we have a huge project that started up a couple 
years ago and LIUNA played a big part in the process of the 
contracting behind it. And we actually attached part of an 
ordinance I guess you can say----
    Chairman CROW. I am sorry. The gentlewoman's time has 
expired. So I am going to have to stop you there but we will go 
into another round, Mr. Bustamante, because I want to hear 
about your project.
    Mr. BUSTAMANTE. Thank you.
    Chairman CROW. Thank you. The gentlewoman yields back.
    The gentleman from New York, Mr. Garbarino, is now 
recognized for 5 minutes.
    Mr. GARBARINO. Thank you very much, Mr. Chairman. I 
appreciate that. I appreciate everyone's testimony today.
    My first question is for Mr. Bustamante. I worked with 
LIUNA when I was in the state legislature in New York. I loved 
the apprenticeship programs. I thought they were great. I 
thought they were one of the best things that we could do 
working with labor and small business working with labor. I 
work very closely with LIUNA partners in New York.
    Can you walk us through how a small business might approach 
hiring an apprentice through a registered apprenticeship 
program?
    Mr. BUSTAMANTE. Of course. So our signatory contractors, 
they have the ability to call out a laborer, whether it is a 
journeyman or apprentice through our local hiring hall. We 
assist in that part of it to where we have these people 
trained. Our apprentices are ready to go when they are on our 
hiring hall list. All our contractors have to do is call us and 
say, hey, I am looking to get an apprentice out here. And we 
call our apprentice and they are out there to work. It is a 
super simple process because we already took care of their 
training. Our contractors have that level of comfort to say 
they called the union hall. They are getting a qualified 
laborer. So it is a very simple process. Like I said, we do 
serve as a hiring hall for our contractors.
    Mr. GARBARINO. The difference between the apprentice 
programs that you run through the hiring hole and some 
companies try to start their own, you know, can you talk about 
the difference and what the benefit is of going through the 
hiring hall?
    Mr. BUSTAMANTE. So going through the hiring hall, I mean, 
obviously, as I said in my testimony, there is a standard. 
Right? There is this higher standard where, you know, approved 
and registered by the U.S. Department of Labor and that in and 
of itself provides the accountability for us to make sure that 
we provide the properly trained laborers. And to add to that it 
is a matter of making sure that these people have the 
opportunity to get out there and actually earn a livable wage. 
Our apprenticeship program also includes some college credit. 
When you complete our apprenticeship program, let's say you do 
it for 2 years and somebody decides that maybe construction is 
not for them, we get them jumpstarted with some college credit. 
We have a partnership with I believe a couple of community 
colleges here. And we have efforts behind increasing that. 
Talking to different community colleges while here locally to 
accept our training as college credit as well.
    Mr. GARBARINO. I appreciate that. I like the way you said 
that, properly trained workers. Properly trained workers you 
get properly done work so I like that. Thank you very much.
    And I have a final question. Mr. Bruner, you did not get to 
answer this question I know was asked of another witness but I 
would like to hear your opinion on what the new proposed tax 
increases incorporations would do to small businesses like 
yours.
    Mr. BRUNER. Thank you, Representative Garbarino. I echo Mr. 
Tamasi's sentiments that any higher operator taxes would 
definitely hurt most small businesses. We have to rely on our 
own funding. There is cheaper money out there like he said 
about farming for banks but that is limited. And we are a C 
corp so we put our money back into our corporation. So every 
dollar that we can save and keep in the company we can use to 
grow the company and do larger projects and higher more people 
and buy more equipment and make more investment in our company 
and projects. So I think the corporate tax structure that is in 
place right now is fair. I think everyone is looking for 
something that is fair and for everyone. And as far as limiting 
the loopholes I think would be fair but I do not think we need 
to raise the tax rates any further than they already are.
    Mr. GARBARINO. And I am sure that you can testify about 
corporations, unlike a regular job where somebody gets a set 
salary every year, corporations are not guaranteed the same 
income every year. Sometimes they have losses and sometimes 
they do very well. So just because a corporation does very well 
one year does not mean it is doing well every year. So to hit 
them harder on a year they are doing well, how would that, you 
know, do you spread those good years amongst the bad ones? Is 
that something that you do?
    Mr. BRUNER. That is a great question and I had personal 
experience with that for many years where in the crisis of 
2008, for example, there were so many days that we lost money 
and we were just trying to keep our heads above water. Does the 
loss carry forward so we can reforward it and help us apply it 
to more prosperous years in the future. And then when you 
finally do make a good income you want to be able to retain 
some of those earnings and put it back into the company. So I 
think that is a great question and they only remember their 
good years and not the bad years but I can tell you I 
definitely remember the bad ones as much as the good ones.
    Mr. GARBARINO. Thank you very much. I yield back, Mr. 
Chairman. Thank you.
    Chairman CROW. Thank you. The gentleman yields back.
    So every member that we had in the queue has now asked a 
question so I might just do a second round. And I do not see as 
many folks on but I wanted to ask one other follow-up question. 
And of course, if the Ranking Member or others wanted to do so 
they would be able to do so as well.
    So with that, let me just go to Mr. Bustamante. We have 
talked a lot about workforce, and obviously, this is in the 
name of the Subcommittee, Workforce Development, because we all 
know that prosperity and innovation and the ability of 
businesses to get the job done, and as Mr. Garbarino said, get 
it done right is tied to your workforce and that a good worker 
is an incredible component of a strong and successful business. 
But part of that is also making sure that workers are safe. 
That they are healthy. That they can live an entire life and 
have a full career. Because if somebody gets injured or ever 
gets sick early in their career, mid-career, or they end the 
rest of their life on disability, that is not good for the 
country. That is not good for their family. It is not good for 
the worker. So with regard to the PRO Act and the role of 
unions in ensuring that there are those protections in place so 
that workers can be safe, they can be healthy, and they can be 
productive and help our economy and businesses grow, I would 
love your view on that.
    Mr. BUSTAMANTE. Thank you, Representative Crow.
    In regards to the PRO Act, it is something that is going to 
bring extreme value to workers. Those worker protections must 
be there. In regard to some of the comments that have been 
said, when you have a high qualified contractor, a lot of this 
comes back to--so union benefits and wages are usually above 
par. Right? They are usually above standard wages and benefits 
paid for by contractors. So it is important to bring the PRO 
Act to light because we need an even playing field at the end 
of the day is all we ask for. We need an even playing field. 
When we have union contractors who have a hard time competing 
with nonunion because they pay more, obviously, it is hard to 
come in as low bidders when they are taking care of their 
workers. They are investing in training. They are investing in 
new careers to get started up in the construction industry. 
When you bring things like the PRO Act, things like labor 
standards such as local hire into the picture, you are creating 
opportunity for people who would never be exposed to these big 
projects and big infrastructure that is going on in their 
communities. You are talking about bringing opportunity to 
people who never saw it there through these apprenticeship 
programs. And when you have the proper wages, when you have 
them taken care of, especially we saw it in the last year 
during a pandemic, when you have quality, quality benefits paid 
for by contractors, these workers are happy. They are rested. 
They are trained. They are safe. So it is definitely key to 
bring something like this at a lower scale to even out that 
playing field.
    Chairman CROW. Is it safe to say you are trying to provide 
a career, not just jobs, but you love to provide a career to 
folks. Is that fair to say?
    Mr. BUSTAMANTE. Yes, sir. And we have laborers who are 
retiring with dignity in this stage of our time. We have a lot 
of laborers who are getting ready to retire and they are 
excited. They are excited that they have a union pension to 
fall back on in addition to Social Security because we do not 
know where that is going. So you have families sustained. Our 
laborers, many of those who are getting close to retirement, 
they have raised families and got them through school in many 
cases or brought them onto their trades as well and they have 
done this in a career as laborers. Sometimes they move forward 
within companies, with contractors or whatever the case may be, 
but that opportunity is there. When you have those high quality 
standards you have the ability for workers to really create 
this career and sustain a family and raise families off of 
these careers.
    Chairman CROW. And last question, Mr. Bustamante, the local 
hire requirement, this is just a requirement that you find your 
workers in the communities where you are doing the work. Why is 
that important to your members and their families? Can you just 
very briefly in the 40 seconds we have left, why is that 
important?
    Mr. BUSTAMANTE. Far too often, Representative Crow, we have 
kind of just underbidding contractors who come in from out of 
state and they bring a large percentage of their workforce from 
out of state. And our workers here locally, they have to drive 
by these projects and see out of state license plates across 
the board and they ask themselves, why am I not working on 
that? Why do I not have that opportunity? So that is why it is 
important to have those local hire standards to ensure that the 
people in the communities do not feel like they are being left 
behind when it comes to this infrastructure investment.
    Chairman CROW. And obviously, I am a family man as are you 
and other folks here. And it is nice to be able to do your hard 
day's work for a good day's pay and actually go home to your 
kids.
    Mr. BUSTAMANTE. Exactly. And live where you work.
    Chairman CROW. Yeah, thank you. My time has expired.
    Ms. Kim, did you have a second round?
    Ms. YOUNG KIM. Sure. Thank you.
    I want to follow up on the line of workforce training 
question that you started. And I want to pose this question to 
Mr. Tamasi.
    It sounds like your company AccuRounds as a midsize 
business is more actively engaged in workforce training than 
perhaps other businesses similarly sized or smaller than yours. 
So for small businesses who do not have as many resources at 
their disposal, what can they do to maintain their pipeline of 
skilled workers?
    Mr. TAMASI. Great question. Thank you, Representative Kim.
    You are correct. We are very active, Moa 1:24:53 and myself 
and many team members in our company because to me it is a 
matter of survival and we have committed to many different 
aspects in STEM and manufacturing. I encourage small businesses 
to take advantage of programs in our state, we have workforce 
training fund grants that will pay for a consultant to come in 
or a trainer to come in to train and you match it with funds. 
That is the simplest way to get involved and take advantage of 
funding at a state level. Any involvement in our advanced 
manufacturing collaborative through the regional consortiums is 
another way, attend a meeting or even make a phone call. And I 
have reached out to many local businesses and there are more 
overall today than there used to be but still not to the level 
we need them to be. To hear their voice, what are their 
concerns, what are their needs so we can tailor programs 
designed to the needs they have to train their workers or hire 
new workers.
    Ms. YOUNG KIM. Thank you very much.
    There are other resources available through the local 
chambers or partnership with SBAs or any SDICs. There are a lot 
of resources available so I hope that we can make that 
information available so other small businesses can take 
advantage of.
    But next question I would like to ask Mr. Bruner. In your 
testimony, you mentioned the negative impacts tax increases may 
have on the construction industry. Can you elaborate on what 
impacts these might have, particularly on small contractors?
    Mr. BRUNER. Thank you for the question, Representative Kim.
    Again, as a small business, our volume capacity is limited 
compared to other companies. And the tax rates I believe are 
fair right now. I know the other side of the aisle is 
encouraging to raise the taxes and I would suggest that some of 
the loopholes be eliminated as opposed to changing the tax 
rates. I want the incentives into investing in [inaudible] 
equipment, maintain that. That is critically important for us. 
Our cost of equipment compared to our cost of labor are almost 
the same and so we are constantly investing in heavy equipment 
and the depreciation laws allow us to invest and defer some 
taxes due to investments in equipment are very helpful. So I 
think that is the best I can tell you.
    Ms. YOUNG KIM. Thank you so much.
    You know, you also referenced budgetary and bureaucratic 
processes causing delays for infrastructure projects. From a 
small business perspective, what regulations or processes would 
you flag as the most damaging?
    Mr. BRUNER. Well, here in California I think the stormwater 
quality problems that we have were on every project there is a 
stormwater pollution plan that has to be implemented and all of 
the requirements that go with that. For a larger contractor 
with multi, you know, $100 million projects, they can afford to 
hire people and manage something like that. But those same 
requirements based upon the area of the project, it is not 
based upon the dollar signs but it is based upon greater than 1 
acre, if the project is larger than 1 acre we are suddenly 
stuck with the same requirements that a $100 million project 
would be. And I am a small contractor when competing with other 
small contractors, it is difficult to put the cost of that into 
the project and still be the low bidder. You can imagine you 
are competing for a job and not everyone is putting the same 
value or understands the same requirements. So if you are the 
low bidder on a project like that it is generally probably 
because you did not place enough emphasis or dollars to take 
care of those requirements that the state will mandate.
    Ms. YOUNG KIM. Thank you so much.
    I also want to take this opportunity to plug in for a 
couple of legislation that I am working in a bipartisan way. 
There are SBA 504 loan programs helping small manufacturers to 
access capital. And these legislations have already passed the 
house and I hope once it is signed into law hopefully it will 
be helpful to small manufacturers in that fashion.
    So thank you very much. I know my time is up and I will 
yield back.
    Chairman CROW. Thank you, Ms. Kim. And I applaud you for 
your work on that legislation as well which I support and it is 
very good work.
    I see Ms. Tenney is still logged in. Ms. Tenney, do you 
have any additional questions?
    Okay. We will take that as a no.
    So that ends the question and testimony period right now. 
So thank you again for all the witnesses.
    This Committee has a long tradition and culture of being 
pragmatic and being bipartisan and getting things done. And 
frankly, I think this hearing was a perfect example of that. I 
think we actually all share the same goals. We want to grow 
jobs. We want to grow innovation. We want the United States to 
be more competitive. We sometimes just disagree on the best way 
to get there but there is also a lot of areas of common 
agreement, a lot of areas where we can work together and I look 
forward to working with all my colleagues to do that. And I 
thank the witnesses for taking their time and lending their 
expertise and their experience to the discussion because this 
frankly is how government should work and how Congress should 
work as we have a coming together and discuss challenging 
issues and ideas and we try to find the best path forward. So 
with that, I am again thanking the Ranking Member for her work. 
I look forward to working with her on the things that we are 
collaborating on.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you all.
    [Whereupon, at 2:33 p.m., the subcommittee was adjourned.]
                            
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
